   August 30, 2004




Acquisition
Undefinitized Contractual Actions
(D-2004-112)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCADS                 Defense Contract Action Data System
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
PNM                   Price Negotiation Memorandum
UCA                   Undefinitized Contractual Action
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                        August 30,2004

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               NAVAL INSPECTOR GENERAL
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Report on Undefinitized Contractual Actions (Report No. D-2004-112)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Army reconsider its position on each of the recommendations and
provide comments on the final report. Also, we request that the Navy comment on each ,
audit recommendation in the final report. The Air Force comments were partially
responsive. We request that the Air Force provide additional comments to
Recommendations 1., 2., and 3. We request additional comments from each of the
Service Acquisition Executives by October 14,2004.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcm@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the /Signed/
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be send over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Eric B. Edwards at (703) 604-9219 (DSN 664-9219) or Mr. Terry L. McKinney at
(703) 604-9288 (DSN 664-9288). See Appendix E for the report distribution. The team
members are listed inside the back cover.
                             By direction of the Deputy Inspector General for Auditing:



                                    David K. Stp~ensma
                                Assistant Insplector General
                                 for Contract Management
            Office of the Inspector General of the Department of Defense
Report No. D-2004-112                                                      August 30, 2004
    (Project No. D2003CF-0072)

                           Undefinitized Contractual Actions

                                    Executive Summary

Who Should Read This Report and Why? This report should be read by acquisition
and contracting officials who issue undefinitized contractual actions (letter contracts).
This report discusses the need to improve the management of letter contracts.
Background. Public Law 99-591, “Continuing Appropriations for Fiscal Year 1987,”
section 908(b), requires the Office of the Inspector General of the Department of Defense
to periodically conduct an audit of undefinitized contractual actions and submit a report
to Congress on the management and value of UCAs for each Military Department. The
last audit issued by the Inspector General of the Department of Defense (IG DoD) on
undefinitized contractual actions was IG DoD Report No. 97-204, “Undefinitized
Contractual Actions,” August 15, 1997. Undefinitized contractual actions are contractual
actions, issued as letter contracts and other instruments, for which the contract terms,
specifications, or prices are not agreed to before performance begins. Undefinitized
contractual actions are restricted for use to meet an urgent requirement of an agency and
for use only after a decision is made that no other alternative contracting method will
fulfill the urgent need. According to Defense Contract Action Data System, DoD issued
1,453 letter contracts, valued at $12.5 billion, from FY 1998 through FY 2002 that were
subject to Public Law 99-591. We reviewed 72 of the 1,453 letter contracts, valued at
$1.7 billion, that were issued by activities within the Military Departments.

Results. The Military Departments implemented performance management systems to
increase awareness of the status of undefinitized contractual actions. However, for
seven contracting activities, the Military Departments compliance with statutory
provisions pertaining to undefinitized contractual actions needed improvement. For
72 letter contracts reviewed, contracting officials did not adequately:

       •   justify the issuance of 10 (14 percent) of the letter contracts valued at over
           $385 million;

       •   definitize 39* (54 percent) of the letter contracts reviewed, valued at $1.3 billion,
           within the required 180 day timeframe; and

       •   document the reasonableness of negotiated profit rates for 60 (83 percent) of the
           letter contracts required to contain the allowable profit, valued at $1.4 billion.

Management control programs lacked coverage of undefinitized contractual actions to
ensure that undefinitized contractual actions were in compliance with DoD regulations.
As a result, undefinitized contractual actions may have been used when they were not


*
    Eight required more than one year.
warranted. The Government risk increases when contracts are not definitized within
required timeframes. Furthermore, the omission of reporting the allowable profit during
negotiations of the undefinitized contractual actions may result in excess profits for
contractors.

To preclude these problems in the future, the Service Acquisition Executives should
develop implementing instructions to be followed when the use of an undefinitized
contract action is being considered. Specifically, the Service Acquisition Executives
should provide guidance to assess the adverse impact that will result if a contracting
method other than an undefinitized contractual action is used. In addition, reasons for
untimely definitization of letter contracts and schedule extensions should be documented
in the contract file and instructions should be developed for determining the allowable
profit when the contracts are being definitized. See the Finding section of the report for
the detailed recommendations.

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Army (Policy and Procurement) generally nonconcurred with the recommendations
stating that sufficient guidance already exists. We disagree with the Army comments
because the need for additional guidance was apparent from the problems identified at
field activities. The Chief of Staff/Policy for the Deputy Assistant Secretary of the Navy
(Acquisition) suggested that the recommendations would be more appropriately directed
to the Under Secretary of Defense (Acquisition, Technology, and Logistics). The Navy
believes that the recommendations are uniformly applicable for processing undefinitized
contractual actions by all Defense department contracting activities. We believe that
each Service is unique and should tailor its guidance to its own management style. The
Associate Deputy Assistant Secretary of the Air Force (Contracting) concurred with all
the recommendations. However, the Air Force needs to clarify its planned actions to
reemphasize the UCA requirements for justifying letter contracts. We request
management comments from the Army, the Navy, and the Air Force on the final report
by October 14, 2004. See the Finding section for a discussion of management comments
and the Management Comments section for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   4

Finding
     Management of Letter Contracts                                          5

Appendixes
     A. Scope and Methodology                                               16
         Management Control Program Review                                  17
         Prior Coverage                                                     18
     B. Undefinitized Contract Actions (Letter Contracts) Issued and
          Definitized                                                       20
     C. Summary of Letter Contracts Reviewed at Contracting Organizations   21
     D. Detailed Results of Letter Contracts Reviewed                       22
     E. Report Distribution                                                 26

Management Comments
     Department of the Army                                                 29
     Department of the Navy                                                 34
     Department of the Air Force                                            35
Background
    Undefinitized contractual actions (UCAs) are contractual actions for which the
    contract terms, specifications, or prices are not agreed to before performance
    begins. Undefinitized contractual actions are generally letter contracts. A letter
    contract is a binding agreement that authorizes the contractor to begin performing
    services or manufacturing supplies immediately. Such work is started under a
    letter contract before the risk or cost of the project is known. We used
    information provided by the Defense Contract Action Data System (DCADS) to
    conduct this audit. DCADS identified only letter contracts, therefore, our review
    focused solely on letter contracts because we could not identify unpriced orders or
    unpriced provisioned item orders.

    United States Code, title 10, section 2326 (10 U.S.C. 2326), “Undefinitized
    Contractual Actions: Restrictions,” restricts the use of UCAs to an urgent
    requirement of an agency and establishes limitations on the obligation of funds,
    the definitization of terms, and allowable profit for UCAs. The Government
    limits the use of UCAs because these contracts place the Government at a distinct
    disadvantage in negotiating final prices.

    Undefinitized contractual actions for foreign military sales, purchases that do not
    exceed the simplified acquisition threshold, special access programs, and
    congressionally mandated long-lead procurement contracts are not subject to
    compliance with 10 U.S.C. 2326. The Defense Federal Acquisition Regulation
    Supplement (DFARS) 217.7402, titled “Exceptions,” stipulates that contracting
    officers should apply DFARS 217.74 on congressionally mandated long-lead
    procurement contracts to the maximum extent practicable.

    Congressional Mandated Review. Congressional concerns resulted in
    establishing the codification of restrictions on the use of UCAs in 10 U.S.C. 2326
    and language in Public Law 99-591, “Continuing Appropriations for Fiscal Year
    1987,” section 908(b), which states:
           Oversight by Inspector General – The Inspector General of the
           Department of Defense shall:

                   (1) periodically conduct an audit of contractual actions
                   under the jurisdiction of the Secretary of Defense (with
                   respect to the Defense Logistics Agency) and the Secretaries
                   of the military departments; and

                   (2) after each audit, submit to Congress a report on the
                   management of undefinitized contractual actions by each
                   Secretary, including the amount of contractual actions under
                   the jurisdiction of each Secretary that is represented by
                   undefinitized contractual actions.

    The IG DoD Report No. 97-204, “Undefinitized Contractual Actions,” on
    August 15, 1997, was our last audit of undefinitized contractual actions.



                                             1
    DoD Reported Letter Contracts. The Defense Contract Action Data System
    reported that DoD issued 5,758 letter contractual actions valued at $28.7 billion
    from FY 1998 through FY 2002. After eliminating contracts exempt from the
    public law and contract modifications, a universe of 1,453 letter contracts valued
    at $12.5 billion remained. According to DCADS, DoD definitized 822 letter
    contractual actions valued at $7.8 billion from FY 1998 through FY 2002. When
    a letter contract is issued, the funds obligated shall not exceed 50 percent of the
    contract ceiling price. When a letter contract is definitized additional obligations
    are used to fund the negotiated contract price. Differences will exist between the
    dollar values for letter contracts issued and definitized letter contracts because
    contract award is based on an estimate and the definitization dollar value is based
    on negotiations.

    Table 1 shows the number of letter contracts issued and definitized and the
    amounts obligated by DoD from FY 1998 through FY 2002 as recorded in
    DCADS. See Appendix B for more details on the amount of undefinitized
    contract actions under the jurisdiction of each Secretary of the Military
    Departments and the Directors of the Defense agencies.



                 Table 1. Letter Contracts Issued and Definitized by DoD

                               Issued                                         Definitized

    Fiscal                              Amount                                            Amount
    Year              Number            Obligated                   Number                Obligated

    1998                315          $1,457,153,187                     48                $ 106,321,956
    1999                296           3,611,200,031                    114                   438,280,607
    2000                237           3,669,813,218                    216                 1,167,021,156
    2001                270           2,183,529,952                    219                 2,630,074,140
    2002                335           1,578,099,041                    225                 3,476,055,683
    Total             1,453        $12,499,795,429                     822            $7,817,753,542


    The number and value of letter contracts issued by DoD fluctuated from 315 in
    FY 1998, valued at $1.46 billion, to 335 in FY 2002, valued at $1.58 billion. The
    number of letter contracts definitized significantly increased from 48 in FY 1998,
    valued at $106.3 million, to 225 in FY 2002, valued at $3.48 billion.

Statutory and Regulatory Requirements
    Approval to Use UCAs. Section 2326(a) of 10 U.S.C. states:
             The head of an agency may not enter into an undefinitized contractual
             action unless the request to the head of the agency for authorization of
             the contractual action includes a description of the anticipated effect on
             requirements of the Military Department concerned if a delay is



                                                 2
        incurred for purposes of determining terms, specifications, and price
        before performance is begun under the contract action.

FAR Part 16.603, “Letter Contracts,” is defined as a written preliminary
contractual instrument that authorizes the contractor to begin immediately
manufacturing supplies or performing services. FAR Part 16.603-3 provides that
a letter contract may be used only after the head of the contracting activity or a
designee determines in writing that no other contracting method is suitable.

DFARS 217.7404-1, “Authorization,” requires that the contracting officer obtain
approval from the head of the contracting activity before entering into a UCA and
also requires that the contracting officer request for UCA approval must include a
full explanation of the need to begin contract performance before contract
definitization.

Contract Definitization. FAR Part 16.603-2(c), concerning letter contracts,
provides that FAR clause 52.216-25, titled “Contract Definitization,” shall be
followed and a definitization schedule will be required to include a target date for
definitization, which shall be the earliest practicable date for definitization. The
schedule will provide for definitization of the contract within 180 days after the
date of the letter contract or before completion of 40 percent of the work to be
performed, whichever occurs first. However, the contracting officer may, in
extreme cases and according to agency procedures, authorize an additional period.

DFARS 217.7403, “Policy,” states that UCAs shall only be used when
contracting officials cannot negotiate definitized contracts in sufficient time to
meet the requirements of the Government. Defense Federal Acquisition
Regulation Supplement 217.7404-3, states:
        UCAs shall contain definitization schedules that provide for
        definitization by the earlier of:

           (1) the date that is 180 days after issuance of the action (this date may be
           extended but may not exceed the date that is 180 days after the contractor
           submits a qualifying proposal), or

           (2) the date on which the amount of funds obligated under the contract
           action is equal to more than 50 percent of the not-to-exceed price.

DFARS 217.7404-3(b) further states that the contractor proposal submitted in
accordance with the definitization schedule is a material element of the contract,
and if the contractor does not submit a timely qualifying proposal, the contracting
officer may suspend or reduce progress payments or take appropriate action.

Section 2326(g)(2) of 10 U.S.C. defines a “qualifying proposal” as:

        . . . a proposal that contains sufficient information to enable the Department of
        Defense to conduct complete and meaningful audits of the information
contained
        in the proposal and of any other information that the Department is entitled to
        review in connection with the contract, as determined by the contracting officer.




                                            3
    Allowable Profit. Section 2326(e) of 10 U.S.C. and DFARS 217.7404-6,
    “Allowable Profit,” require that:

           The head of an agency shall ensure that the profit allowed on an undefinitized
           contractual action for which the final price is negotiated after a substantial
           portion of the performance required is completed reflects:

              (1) the possible reduced cost risk of the contractor with respect to costs
              incurred during performance of the contract before the final price is
              negotiated, and

              (2) the reduced cost risk of the contractor with respect to costs incurred
              during performance of the remaining portion of the contract.

    DFARS 215.404-4(c)(2), “Contracting Officer Responsibilities,” states that the
    contracting officer must use a “weighted guideline” for determining profit or fee
    objectives unless a modified “weighted guideline” applies or an alternate
    approach is justified. A weighted guideline is a method used by DoD contracting
    officers to establish a basic profit rate under a formula that focuses on profit
    factors such as performance risk and contract type risk.
    DFARS 215.404-71-3(d)(2) states that contracting officers shall assess the
    amount of contractor-incurred costs prior to definitization, before assigning the
    cost-risk element (contract-type risk) of the profit objective. DFARS 215.404-71-
    3(d)(2) also states that when costs have been incurred prior to contract
    definitization, contracting officers should generally regard the contract-type risk
    to be in the low end of the designated risk range. A contracting officer may
    assign a value as low as zero percent for contract-type risk when a substantial
    portion of the cost has been incurred prior to definitization.

    Contract Documentation. FAR 15.406-3(10), states the contracting officer must
    document in the contract file the basis for the profit or fee prenegotiation
    objective and the profit or fee negotiated. The documentation will be represented
    in a price negotiation memorandum or similar contracting instrument.
    DFARS 215.404-4 requires the profit analysis to be documented in the contract
    file.


Objectives
    The audit objective was to evaluate DoD compliance with restrictions on
    undefinitized contractual actions imposed by 10 U.S.C. 2326. We also reviewed
    the management control program related to the overall audit objective. See
    Appendix A for a discussion of the scope and methodology and the review of the
    management control program.




                                               4
              Management of Letter Contracts
              Military Department contracting activities were not consistently
              complying with statutory provisions applicable to undefinitized
              contractual actions (UCAs), also known as letter contracts. For 72 letter
              contracts, valued at $1.7 billion, contracting officials at 7 activities did not
              adequately:

                      •   justify the issuance of 10 (14 percent)* of the letter contracts
                          reviewed, valued at $385 million;

                      •   definitize 39 (54 percent)* of the letter contracts reviewed,
                          valued at $1.3 billion, within the 180 day timeframes; and

                      •   document the reasonableness of negotiated profit rates for 60
                          (83 percent)* of the letter contracts required to contain the
                          allowable profit, valued at $1.4 billion.

              Inadequate justification for the letter contracts occurred because
              contracting officials either did not adequately document the adverse
              impact or maintain a record of the adverse impact in the contract files.
              Contract definitization delays generally occurred because the Military
              Departments and the contractor were working to reach agreement on
              contractual terms, conditions, and price, but no explanations were
              included in the contract file for expected late definitizations and schedule
              extensions. Furthermore, contracting officers were either unaware of the
              requirement or unsure how to implement the existing requirement for
              computing the allowable profit and therefore failed to do so. As a result,
              the Military Department’s position in the price negotiation and contract
              award may have been weakened and delays definitizing contracts may
              have increased the risk to the Government. Furthermore, the failure to
              adequately document allowable profit may have resulted in excess profits.


Letter Contracts Reviewed
    We judgmentally selected and reviewed 72 undefinitized contractual actions. The
    contracts were reported as letter contracts in the Defense Contract Action Data
    System. These contracts were valued at $1.7 billion, and were either issued or
    definitized from FY 1998 through FY 2002. We visited seven Army, Navy, and
    Air Force contracting organizations that initiated the 72 UCAs that we reviewed.
    The UCAs were issued for the acquisition of capital assets and services. See
    Appendix C for details on the contracting organizations we visited, value of the
    letter contracts by activity, and a summary of the deficiencies noted.




    *
        Judgment sample percentage does not generalize to universe.


                                             5
Contract Deficiencies
     Our review of the 72 UCAs identified a total of 109 deficiencies. Each of the
     72 UCAs had at least one deficiency. The deficiencies consisted of three different
     types: incomplete justifications issued, untimely definitization, and insufficient
     documentation supporting the negotiated allowable profit rate. See the following
     table for details relating to each Military Department.


                              Table 2. Letter Contract Deficiencies

     Deficiency                                  Army     Navy   Air Force   Total

     Issuance Without Adequate Justification          3     4       3        10
     Untimely or No Contract Definitization          20    14       5        39
     Insufficient Justification for Negotiated
       Profit Rate                                   26    13      21         60
     Total                                                                   109



     See Appendix D for further details of the deficiencies.

     Justification. Approval documents for 10 (14 percent)* of 72 letter contracts
     reviewed, valued at over $385 million, did not adequately describe the adverse
     impact if work was delayed until contractual terms, specifications, and prices
     were finalized. The contract files did not have adequate documentation to support
     the reason a letter contract was necessary or preferred over routine contracting
     procedures. Also, 18 (25 percent) of the 72 letter contracts reviewed were issued
     when the acquisition requirements had been known by the agency prior to the
     issuance of the letter contracts.

             Adverse Impact Not Disclosed. Of the 10 UCAs, 6 (2 Army and 4 Navy)
     contracts, representing 8 percent*of the total letter contracts reviewed, did not
     contain the adverse impact on agency requirements resulting from delays in
     beginning performance if a UCA was not issued. The adverse impact is the basis
     supporting the issuance of a letter contract versus using routine contracting
     procedures. The contracting officers either did not perform an adverse impact
     analysis or document the effect of the adverse impact on the agency requirements.
     Although the adverse impact was not documented, senior contracting officials at
     the various activities had approved the use of letter contracts.

             Adverse Impact Lacks Specifics. Of the 10 UCAs, 4 (1 Army and 3 Air
     Force) representing 6 percent* of the total letter contracts reviewed, lacked
     specifics and contained vague statements describing the adverse impact on agency
     requirements resulting in inconclusive support for the issuance of letter contracts.
     For example, for Aeronautical Systems Center letter contract F33657-00-C-2120,
     dated June 12, 2000, for test program sets, the approval document states without
     issuance of an undefinitized contract action, the Milestone III production decision
     will not be achievable and fielding of the Follow-On Test Program Sets will not


                                                 6
be timely for the user. The approval document did not describe the specific
impact on the agency requirements if routine contracting procedures were used.

        For letter contracts for which the issuing contracting official was
available, we found that the lack of specifics for adverse impact existed because
the contracting officials believed they had met the regulatory requirement even
though they had not adequately addressed the adverse impact. For letter contracts
for which the contracting official was not available, we did not identify a
documented adverse impact in the contract files. Accordingly, we believe
guidance in the form of an implementing instruction is required to set forth what
is anticipated and what constitutes an impact. For example, a monetary resource
impact when cited should be quantified and reported to support the use of a letter
contract versus a routine contract method. Also, more emphasis is required to
mandate improved letter contract justification documentation.
        Letter Contracts Issued for Known Acquisition Requirements.
Contracting officers issued 18 of the 72 letter contracts, valued at $731 million,
for known acquisition requirements. These contracts were used for such actions
as replacing an existing contract which was expiring in order to prevent a break in
contractor’s production and to establish a service life assessment program. For
example, the Aeronautical Systems Center contract F33657-01-C-4600, for the
Global Hawk engineering and manufacturing development effort, was originally
scheduled for an award date of November 30, 2000. The letter contract was
required to avoid a significant negative impact on the delivery schedule which
would impact production efforts for the low rate initial production and full rate
production. The system was an existing known requirement prior to the letter
contract issuance. The contract file documentation did not disclose whether the
contracting officer conducted deliberation of alternative contracting methods and
the corresponding impact.

         The adverse impact for a known requirement is diminished when the letter
contract is issued a significant amount of time after the urgency is established.
For example, Army Communications and Electronic Command contract
DAAB07-01-C-L304 was issued March 16, 2001. The statement of urgency was
issued for an aircraft replacement to support SOUTHCOM counternarcotics
missions in July 1999−20 months later. The time lapse diminished the actual
urgency and adverse impact reported earlier. A Request for Approval of
Determination and Findings, dated March 14, 2001, stated the letter contract must
be approved on or before March 16, 2001, in order to meet schedule requirements
and preclude a loss of funding. A Determinations and Finding was subsequently
issued March 16, 2001, that did not contain reference to the loss of funding but
reported the need for the letter contract to meet the production schedule. A lack
of consistent reporting existed for the basis to support the UCA approval. We
believe a letter contract should not have been issued given the significant amount
of time between the stated urgency and letter contract issuance. In the instances
of letter contracts issued for known requirements, the contract price can be
reasonably estimated because the contract requirements, terms, and specifications
are known. Appendix C provides details on the letter contracts with justification
deficiencies.




                                     7
Untimely Definitization. Contracting officers did not definitize the terms and
prices for 39 (54 percent)* of 72 letter contracts within the specified timeframes.
Of the 39 letter contracts, 35 contracts were definitized beyond 180 days
and 4 contracts had not been definitized at the time of the audit fieldwork. The
contract terms and prices of letter contracts are required to be definitized within
180 days from the issuance date. Table 3 shows days elapsed before the 35 letter
contracts were definitized.

       Table 3. Elapsed Days to Definitize Letter Contracts

               Letter                      Days to Definitize
               Contracts       181-360 361-499 500-699 700-899 900+

Army              19              15         3          1          0       0
Navy              12               8         1          2          0       1
Air Force          4               4         0          0          0       0
  Total           35              27         4          3          0       1

For the 72 letter contracts reviewed:

       •    28 (39 percent)* of the letter contracts reviewed were definitized
            within 180 day period,

       •    35 (49 percent)* of the letter contracts reviewed were definitized an
            average of 322 days after the contracts were awarded, and

       •    4 (6 percent)* of the letter contracts reviewed were not definitized at
            the completion of our audit field work.

For example, CECOM contract DAAB07-00-C-L004, issued December 22, 1999,
for procurement of initial spares for a Common Ground Station took 555 days to
definitize from the issuance date. The contract was originally planned for
definitization on April 20, 2000, 119 days after issuance. However, the proposal
for definitization was not submitted until June 28, 2000—9 days after the initial
180 day timeframe allowed to definitize the contract. The definitization did not
occur for another 366 days, or on June 29, 2001, from the date the proposal was
received. According to a contracting official, proposal updates requiring
numerous adjustments caused the definitization delay. The planned definitization
schedule established was unrealistic.

Twelve proposals were submitted within the initial scheduled requirement of
180 days but were definitized more than 180 days from the date of their submittal.
None of the files for the 12 contracts contained schedule extension approvals or
explanations in the contract file as to why the 180 day timeframe was exceeded.
Furthermore, contracting officers took no steps to suspend or reduce payments
related to these letter contracts that were not timely definitized.

Waivers. The Air Force waived definitization schedule limitation in
DFARS 217.7404-3, based on Air Force Deputy Assistant Secretary (Contracting)
memo, titled “Undefinitized Contract Actions and Contingency Operations in
Support of Operations Enduring Freedom and Noble Eagle,” dated


                                        8
November 28, 2001. DFARS 217.7404-5, titled “Exceptions,” states that the
head of an agency may waive the limitation in DFARS 217.7404-3 for UCAs if a
waiver is determined to be needed to support a contingency operation. The
10 U.S.C. 101(a)(13) defines a contingency operation as a military operation that
is designated by the Secretary of Defense as an operation in which members of
the armed forces are or may become involved in military actions, operations, or
hostilities against an enemy of the United States or against an opposing military
force. As a result of the criteria described above, we accept the Air Force
treatment of 5 letter contracts cited for untimely definitization.

        Risk of Delayed Contract Definitizations. Untimely definitization of
contracts transfers additional cost and performance risk from the contractors to
the Government. The Military Departments normally reimburse contractors for
all allowable costs they incur on letter contracts. Therefore, contractors have less
cost risk in performing the contractual efforts when definitization is untimely,
particularly if a fixed-price contract is contemplated for the procurement. A
fixed-price contract places the greatest amount of risk on the contractor for
meeting cost, schedule, and performance goals.

Allowable Profit Determination. The allowable profit was not documented for
60 of 72 letter contracts, representing 83 percent* of letter contracts required to
comply with DFARS 217.7404, that were definitized for a total value of $1.4
billion. The letter contract definitization contracts did not contain evidence in the
price negotiation memorandum or the weighted guidelines that allowable profit
factors, such as the reduced cost risk, were considered prior to negotiation of the
final price. Also, the cost incurred during the contract performance was not
evident in the contract reviews of profit determinations which effect the
development of the cost risk factor. Without sufficient information to support the
allowable profit, we cannot determine whether contracting officers applied or
even considered allowable profit in definitizing the undefinitized contractual
actions to comply with DFARS 217.7404.

        Price Negotiation Memorandums. The price negotiation memorandums
or business clearance memorandums reviewed did not contain the profit analysis
for determining the allowable profit in accordance with DFARS 217.7404. For
example, the contracting officer, for the Naval Air Systems Command contract
number N00019-00-C-0249, was familiar with the DFARS requirement on
allowable profit and considered cost incurred but did not document the method to
compute the allowable profit in the price negotiation memorandum or the
weighted guidelines. Naval Air Systems Command internal business clearance
policy did not address a documentation requirement to provide an explanation on
how the DFARS allowable profit computation is determined. As a result, no
determination can be made whether the cost incurred was considered for both the
period prior to definitization and for the remaining work effort in computing the
allowable profit.

        Weighted Guidelines. Weighted guidelines are used to compute profit on
contracts to be definitized. Of 30 contracts with completed weighted guidelines,
no reference was made for computing the allowable profit when negotiating the




                                      9
     definitization of the UCA. The weighted guidelines did not disclose evidence that
     the allowable profit factors were considered in definitization of letter contracts to
     comply with DFARS 217.7404.

             Contracting Officer Positions. Consideration of allowable profit ensures
     that the Government does not negotiate a profit rate that exceeds the proportion of
     work remaining on the contract. On some contracts, contracting officers stated
     they considered the allowable profit methodology; however, no documentation
     was available to support their assertion in the contract files. Furthermore,
     contracting officials were not definite on the method to implement existing
     guidance on computing the allowable profit.

     Advanced Procurement Contracts. During our review, we found 15 advance
     procurement actions identified as letter contracts that were excluded from our
     reporting because advance procurement contracts are not required to comply with
     10 U.S.C. 2326, but are recommended to follow the guidelines.


Reasons for Deficiencies Identified
     The lack of required and sufficient adverse impact justifications in the letter
     contracts reviewed was because contracting officials either did not adequately
     document the adverse impact or in instances where the contracting official was no
     longer available, a written adverse impact was not in the contract file. The lack of
     timely definitization occurred because the Military Departments and the
     contractor were working to reach an agreement on contract terms and prices but
     did not include explanations in the contract file for the anticipated late
     definitization and the schedule extensions that occurred. Contracting officials did
     not report the allowable profit because they either were not aware of the
     requirement, did not know how to implement the policy, or just failed to
     document their actions.


Conclusion
     The absence of an adverse impact in contracts impairs the ability to support the
     justification for the award of UCAs. The untimely definitization of letter
     contracts lacked explanations in the contract files to support schedule extensions.
     The failure to adhere to policies on UCAs weakened the contractual position of
     the Military Departments in the award and negotiation process. Without
     documenting the basis for the allowable profit, the contracting organizations of
     the Military Departments may have enabled the contractors to obtain excessive
     profits.




                                          10
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of the Army (Acquisition, Logistics,
    and Technology), Assistant Secretary of the Navy (Research, Development, and
    Acquisition), and Assistant Secretary of the Air Force (Acquisition) take action
    for processing UCAs for their contracting organizations. The Army generally
    nonconcurred with most of the recommendations. The Navy did not address the
    recommendations. Instead, the Navy requested that the recommendations be
    redirected to the Under Secretary of Defense (Acquisition, Technology, and
    Logistics) for response. The Air Force generally concurred, however, we found
    some of its comments to be nonresponsive. Our response to each Services’
    management comments is addressed below.
    Navy Management Comments. The Chief of Staff/Policy for the Deputy
    Assistant Secretary of the Navy (Acquisition) stated that the recommendations
    should be addressed to the Under Secretary of Defense (Acquisition, Technology,
    and Logistics) because UCA processing is required by all Defense department
    contracting activities.

    Audit Response. The Navy deferral of its comments on the recommendations to
    the Under Secretary of Defense (Acquisition, Technology, and Logistics) was not
    responsive. The Navy should tailor existing UCA policy that is used by its
    acquisition activities. The Naval Sea Systems Command and the Naval Air
    Systems Command have UCA guidance that could be strengthened for processing
    UCAs to ensure letter contracts are awarded with sound support. The
    recommendations will increase the management controls over developing,
    processing, and tracking undefinitized contractual actions. Therefore, we request
    that the Navy reconsider its position and provide comments to the final report.

    1. Prepare specific instructions, for use by the field activities when issuing
    letter contracts for the procurement of goods and services, outlining the
    requirement to assess the adverse impact to support issuance of a letter
    contract.

    Army Management Comments. The Deputy Assistant Secretary of the Army
    (Policy and Procurement) nonconcurred and stated the requirement to assess the
    adverse impact to support the issuance of a letter contract was already provided
    for in DFARS 217.7404-1(a).

    Audit Response. The Army management comments were nonresponsive. We
    found instances where the written adverse impact was broad and general, and
    therefore, limited the ability to make the best informed decision for awarding a
    UCA. Although DFARS 217.7404-1(a) requires reporting an adverse impact, the
    regulation does not provide a description on type of impacts. Based on our
    review, we support the reinforcement of the DFARS requirement and the
    establishment of distinct, measurable reporting requirements that will provide for
    definitive adverse impact reporting. We request that the Army reconsider its
    position on the recommendation and provide comments on the final report.



                                        11
Air Force Management Comments. The Associate Deputy Assistant Secretary
of the Air Force (Contracting) concurred and stated that the Policy Chiefs will
reemphasize the requirement to fully explain the adverse impact on the agency
resulting from delays in beginning performance.

Audit Response. Although the Air Force concurred, its management comments
were only partially responsive. The Air Force only partially meets the full intent
of our recommendation. Written instructions tailored to require a measurable
adverse impact would enhance the ability to determine the actual effect on agency
requirements. The development of an instruction requiring a measurable
monetary or quantifiable adverse impact will provide an enhanced adverse impact
assessment for approving a UCA. We request that the Air Force reconsider its
position on the recommendation and provide comments on the final report.

2. Require contracting officers to document the adverse impact in the
contract file if the procurement is delayed.

Army Management Comments. The Deputy Assistant Secretary of the Army
(Policy and Procurement) nonconcurred and stated that the requirement for the
contracting officer to assess the adverse impact to support issuing a letter contract
was already provided for in DFARS 217.7404-1(a).

Audit Response. The Army management comments were nonresponsive. We
agree that the requirement exists in the DFARS. However, adverse impacts were
not always documented in the contract file or were not specific, even though
DFARS 217.7401-1(a) requires the contracting officer to fully explain the adverse
impact on agency requirements resulting from delays in beginning performance.
Therefore, reemphasis is needed to address the requirement. We request that the
Army reconsider its position on the recommendation and provide comments on
the final report.

Air Force Management Comments. The Associate Deputy Assistant Secretary
of the Air Force (Contracting) concurred and stated that the Air Force Material
Command will include this topic in the July 4, 2004, Policy Chiefs video
teleconference.
Audit Response. The Air Force comments were partially responsive. Although
the Air Force concurred and stated that Air Force Material Command will include
the topic in a Policy Chiefs video teleconference, we believe additional emphasis
in the form of a memorandum to contracting activities should be undertaken to
ensure adverse impacts are documented in the contract file. Therefore, we request
that the Air Force reconsider its position on the recommendation and provide
comments on the final report.

3. Require justification documents for all letter contracts that provide
specific details on the procurement planning performed.

Army Management Comments. The Deputy Assistant Secretary of the Army
(Policy and Procurement) nonconcurred and responded that DFARS
217.7404-1(a) already states that the contracting officer’s request for approval for



                                     12
entering into a UCA must fully explain the need to begin performance before
definitization.

Audit Response. The Army management comments are nonresponsive. The
policy does not address prior planning but rather explains the need to begin
performance before definitization. The DFARS 217.7404-1(a) does not translate
into a requirement to document earlier planning to award a contract.
Documenting the acquisition history will at a minimum, provide an understanding
of events that lead up to the UCA and potentially identify the root cause for the
undefinitized contractual action. We request that the Army reconsider its position
on the recommendation and provide comments on the final report.

Air Force Management Comments. The Associate Deputy Assistant Secretary
of the Air Force (Contracting) concurred and stated procurement planning is part
of justification for a letter contract and Air Force Material Command will discuss
this subject during a Policy Chiefs video teleconference.

Audit Comments. The Air Force comments are partially responsive. The
justification for a letter contract explains the urgency that contributes to the need
for the UCA but not the prior planning that existed for the contractual effort
before the urgency developed to pursue a letter contract. The prior procurement
planning would serve to identify the chronology of events that lead up to the
urgency for a UCA and potentially identify the root cause for a letter contract that
is not always evident from the justification documents. We request that the Air
Force reconsider its position on the recommendation and provide comments on
the final report.

4. Require contracting officers to provide written justification in the
contract files for surpassing DFARS definitization schedule milestones.

Army Management Comments. The Deputy Assistant Secretary of the Army
(Policy and Procurement) partially concurred and will reiterate the statutory
requirements relative to the definitization of UCAs and the importance of
documenting the circumstances affecting the definitization schedule. However,
DFARS 217.7404-3 did not specifically address the scope of contract file data for
instances exceeding the 180 day definitization schedule.

Audit Response. The Army comments were nonresponsive. FAR Part 4.801
requires that documentation in the contract files be sufficient to constitute a
complete history of the transaction for the purpose of supporting actions taken
and providing a complete background as a basis for informed decisions at each
step in the acquisition process. The regulation further provides that the head of
each office performing contracting shall establish files containing the records of
all contractual actions. These records will include information to be used for
reviews. Because DFARS 217.7404-3 includes specific information relating to
definitization schedule extensions, the corresponding authorization should be
documented to facilitate an understanding of the actions during an external
review. We request that the Army reconsider its position on the recommendation
and provide comments on the final report.




                                     13
Air Force Management Comments. The Associate Deputy Assistant Secretary
of the Air Force (Contracting) concurred and stated instead of just requiring
written contracting officer justification, management reporting will be
strengthened for late definitizations. The Air Force intends to change the Air
Force Federal Acquisition Regulation Supplement reporting requirement to match
the DFARS requirement of 180 days and will revise the former by September 30,
2004.

5. Develop implementing guidance on the allowable profit requirement as
defined in DFARS 217.7404-6, “Allowable Profit.”

Army Management Comments. The Deputy Assistant Secretary of the Army
(Policy and Procurement) nonconcurred and responded that DFARS 217.7404-6
guidance addresses the allowable profit computation elements. Further, this
report does not quantify whether a substantial portion of the required performance
has been completed for the contracts at issue.

Audit Response. The Army comments were nonresponsive. The predominant
number of contracts reviewed lacked information that distinguished the allowable
profit calculation required on a UCA from any other type of contract. The
documentation did not contain clear and concise information to demonstrate cost
incurred, cost risk, and the amount of performance completed for specifically
computing the allowable profit for a UCA. The contract file documentation
reviewed failed to distinguish the profit calculation in support of definitizing an
undefinitized contractual action from any other type of contract. The inability to
distinguish the profit computation for an allowable profit, as required by DFARS
217.7404-6, justifies implementing guidance to ensure the criteria is met. We
request that the Army reconsider its position on the recommendation and provide
additional comments on the final report.

Air Force Management Comments. The Associate Deputy Assistant Secretary
of the Air Force (Contracting) concurred and agreed guidance needs
improvement. The Air Force Material Command future training will emphasize
the need for contracting officers to document the basis of the allowable profit
determination and reasonableness of the negotiated profit rates on letter contracts
in the price negotiation memorandum. Furthermore, the Air Force weighted
guidelines tool will be revised to include a breakout of UCAs under contract type.
This will allow the contracting officer the ability to adjust the profit/fee for lower
risk due to actuals incurred.

6. Require contracting officers to document the basis for the allowable profit
determination on letter contracts in the price negotiation memorandum.

Army Management Comments. The Deputy Assistant Secretary of the Army
(Policy and Procurement) nonconcurred with the requirement for the contracting
officers to document the basis for the allowable profit determination on letter
contracts in the price negotiation memorandum.

Audit Response. The Army comments were nonresponsive. The price
negotiation memorandums and corresponding weighted guidelines lacked the
methodology or explanation on how DFARS 217-7404-6 was implemented to


                                     14
satisfy computing the allowable profit for an undefinitized contractual action. In
instances for which profit calculation existed, there was no indication that the
profit was computed specifically for a UCA versus another type of contract. We
request that the Army reconsider its position on the recommendation and provide
comments on the final report.

Air Force Management Comments. The Associate Deputy Assistant Secretary
of the Air Force (Contracting) concurred and agreed that better documentation is
required. The Air Force Material Command will reinforce the requirement in
contract pricing training classes and upcoming contract pricing training modules.
Further, documentation required will be reinforced with the training.




                                    15
Appendix A. Scope and Methodology
   Universe and Sample Information. We used DCADS to identify a universe and
   sample of UCAs for review. As discussed in the Finding, DCADS identified only
   letter contracts. We selected a sample of 87 letter contracts, valued at $2.9
   billion, consisting of low, medium, and high dollar contracts issued by seven
   Army, Navy, and Air Force contracting organizations. The Army activities
   visited were the U.S. Army Communications-Electronics Command, U.S. Army
   Aviation and Missile Command, and the Defense Contracting Command–
   Washington. The Navy activities visited were the Naval Sea Systems Command
   and the Naval Air Systems Command. The Air Force activities visited were the
   U.S. Air Force Aeronautical Systems Center and the U.S. Air Force Oklahoma
   Air Logistics Command. We judgmentally selected the letter contracts reviewed
   from a universe of 1,453 letter contracts with obligations totaling $12.5 billion.
   The actions were recorded in DCADS from FY 1998 through FY 2002. All the
   letter contracts reviewed were issued by the Military Departments.

   Because of the incomplete information on UCAs and errors in the DCADS data,
   we were unable to project DoD-wide audit results. Therefore, the audit results
   presented in this report are the analysis of attributes based only on the 72 letter
   contracts reviewed. Because unpriced orders under basic ordering agreements
   and provisioned item orders were not included in DCADS, we did not include
   them in our judgmental sample selection. However, we did inquire on their
   capture in the UCA reporting systems at field sites visited. Also, we did not
   include the results of advance procurement contracts in our letter contract
   reporting. Advance procurement contracts are not required to comply with
   10 U.S.C. 2326 although they are to follow criteria to the maximum extent
   possible. The details are summarized in Appendix D.

   Use of Computer-Processed Data. We relied on computer-processed data from
   DCADS to determine the contracting organizations to visit and to perform the
   audit sample selection. Although we did not perform a formal reliability
   assessment of the computer-processed data, we verified the DCADS contractual
   categorization and dollar value against official records at visited field activities.

   Review of Documentation and Interviews. We reviewed documentation
   maintained by the contracting organizations of the Military Departments to
   support letter contracts awarded or definitized from FY 1998 through the FY
   2002. The types of contract file documentation examined were:

          •   award justification and approval documentation,

          •   acquisition plans,

          •   appropriation data sheets (obligation documents),

          •   contract modifications,

          •   price negotiation memorandums,



                                        16
           •   business clearance memorandums,

           •   Defense Contract Audit Agency audit reports,

           •   price or cost analysis reports,

           •   reports generated from DCADS, and

           •   profit determinations.

    We interviewed contracting officers and procurement officials covering award
    and definitization of letter contracts and related management control programs.

    We performed this audit from March 2003 through March 2004 according to
    generally accepted government auditing standards.
    Scope Limitation. Although there are basic ordering agreements and provisional
    item orders that qualify as UCAs, we did not review them because there is not a
    uniform database in DoD to identify the universe or applicable contracting office.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the Military Departments. Further details are available on
    request.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report pertains to GAO
    high-risk area Defense Contract Management. Implementation of the
    recommendations will improve processes and controls to reduce contract risk in
    UCA execution.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” dated August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy of
    the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of Army, Navy, and Air Force management control programs covering
    award and definitization of UCAs. We reviewed the management control
    program, assessable unit and policy used to manage undefinitized contractual
    actions. A copy of the report will be provided to the senior official in charge of
    management controls for the Army, Navy, and Air Force.

    Adequacy of Management Controls. We identified material weaknesses as
    defined by DoD Directive 5010.38. For the Army, Navy, and Air Force
    contracting organizations visited, weaknesses varied among the activities to


                                         17
       maintain management control programs that covered all the restrictions and
       implementing requirements on the use of UCAs. Furthermore, although the
       contracting organizations generally maintained a system to identify and track
       UCAs, lack of detail in the management control plan did not provide for review of
       either the justification adverse impact or allowable profit being evaluated.

       If management implements all the report recommendations, then the UCA award,
       definitization, and reporting processes would improve, and potential monetary
       benefits could be realized. However, we could not determine the monetary
       benefits amount because the amount will depend on the value of future UCA
       awards.

       Adequacy of Management’s Self-Evaluation. Army, Navy, and Air Force
       officials did not consistently identify the UCA award and negotiation process as a
       separate assessable unit. Therefore, the Military Departments did not identify or
       report on the material management control weaknesses identified by the audit.


Prior Coverage
       During the last 5 years, there has been 4 reports issued that discusses
       undefinitized contractual actions. Additionally, the Inspector General of the
       Department of Defense (IG DoD) issued an audit report in 1997 on undefinitized
       contractual actions based on the same statutory requirement as this report. As a
       result, the audit report title, number and date is listed below. Unrestricted
       IG DoD reports can be accessed at http://www.dodig.osd.mil/audit/reports.

IG DoD
       IG DoD Report No. 97-204, “Undefinitized Contractual Actions,”
       August 15, 1997

Navy
       Naval Audit Service Audit Report, “Fiscal Year 2002 Implementation of the
       Federal Managers’ Financial Integrity Act at Selected Navy Activities,”
       March 26, 2003

       Naval Audit Service Audit Report, “Administering Contracting Actions Without
       Prices at Supervisors of Shipbuilding, Conversion, and Repair,” June 2, 1998,
       Report No. 038-98




                                           18
Air Force

     Air Force Audit Agency Installation Audit, “Undefinitized Contract Actions,
     Electronic Systems Center, Hanscom AFB MA,” July 31, 2001,
     Report No. DH001019

     Air Force Audit Agency Installation Audit, “Undefinitized Contractual Actions,”
     December 14, 2000, Report No. DI001014




                                        19
Appendix E. Distribution List

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Director, Program Analysis and Evaluation
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                          26
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Department of the Army Comments
                                  Final Report
                                   Reference




                                  Enclosures 2
                                  and 3 are
                                  omitted but
                                  are available
                                  upon
                                  request.




                    29
30
31
32
33
               Department of the Navy Comments
Final Report
 Reference




Enclosure 1
was omitted
but is
available
upon
request.




                                   34
Department of the Air Force Comments
                                       Final Report
                                        Reference




                                       Attachment
                                       1 was
                                       omitted but
                                       is available
                                       upon
                                       request.




                     35
36
37
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

David K. Steensma
Terry L. McKinney
Eric B. Edwards
Martin I. Gordon
George A. Ford
Monelle K. Riviere
Lavina Mensah
Sherney Alexander
Theresa L. Tameris
